50204                  Federal Register / Vol. 65, No. 160 / Thursday, August 17, 2000 / Notices

SUMMARY: The Children’s Bureau, in the        DATES:  In order to be considered,                 ambulance CRG to reduce the potential
Administration on Children, Youth and         written comments in response to this               for fraud and abuse. The OIG expects
Families, administers the title IV–E          Notice must be received September 18,              that the CRG will outline the most
program which providers funds to              2000.                                              common and prevalent fraud and abuse
States to assist in meeting the needs of      ADDRESSES: Please address written                  risk areas for the ambulance industry. In
certain children who are removed from         comments to: Kathy McHugh, Director                addition, the CRG will provide guidance
their homes and placed in foster care.        of Policy, Children’s Bureau,                      on how to: (1) Address these risk areas;
Federal financial participation (FFP) is      Administration on Children Youth and               (2) prevent the occurrence of instances
available for a portion of the costs States   Families, 330 C Street, SW., Room 2411,            of fraud and abuse; and (3) develop
incur in operating the foster care            Washington, DC 20447. Comments will                corrective actions when those risks or
maintenance payments program.                 not be accepted electronically, by                 instances of fraud and abuse are
   We have received a number of               telephone, or by fax.                              identified.
inquiries regarding the requirements          FOR FURTHER INFORMATION CONTACT: Joe                  The OIG expects that the risk areas
and/or restrictions associated with           Bock, Child Welfare Program Specialist             identified in the CRG will not be all-
State’s contracting for the performance       Children’s Bureau, Administration on               inclusive. Ambulance providers and
of title IV–E administrative functions. In    Children, Youth, and Families at (202)             suppliers will remain responsible for
light of the range and complexity of the      205–9632.                                          identifying those risk areas particular to
questions posed by States, we would                                                              their specific operations.
like to examine the issues raised more          Dated: August 10, 2000.
closely. This notice invites public           Patricia Montoya,                                  DATES: To assure consideration,
comment on State practices in                 Commissioner, Administration on Children,          comments must be delivered to the
contracting for the performance of title      Youth and Families.                                address provided below by no later than
IV–E administrative functions. Based on       [FR Doc. 00–20857 Filed 8–16–00; 8:45 am]          5 p.m. on October 16, 2000.
comments received, we will determine          BILLING CODE 4184–01–M                             ADDRESSES:   Please mail or deliver your
the need for additional guidance related                                                         written comments, recommendations
to contracting for the performance of                                                            and suggestions to the following
specific title IV–E administrative            DEPARTMENT OF HEALTH AND                           address: Department of Health and
functions.                                    HUMAN SERVICES                                     Human Services, Office of Inspector
   Section 471(a)(5) of the Social                                                               General, Attention: OIG–1–CRG, Room
Security Act requires States to ‘‘ * * *      Office of Inspector General
                                                                                                 5527 A, Cohen Building, 330
use such methods relating to the              Solicitation of Information and                    Independence Avenue, S.W.,
establishment and maintenace of               Recommendations for Developing a                   Washington, D.C. 20201.
personnel standards on a merit basis          Compliance Risk Guidance for the                     We do not accept comments by
* * *’’ Under a merit system of               Ambulance Industry                                 facsimile (FAX) transmission. In
personnel administration, certain
                                                                                                 commenting, please refer to the file code
administrative functions must be              AGENCY: Office of Inspector General
                                                                                                 OIG–1–CRG. Comments received timely
performed by State agency employees.          (OIG), HHS.
                                                                                                 will be available for public inspection as
Functions that must be retained by the        ACTION: Notice.
                                                                                                 they are received, generally beginning
State agency are referred to as
                                              SUMMARY:    This Federal Register notice           approximately 3 weeks after publication
‘‘inherently governmental.’’ Office of
                                              seeks the input and recommendations of             of a document, in Room 5541 of the
Management and Budget Circular A–76,
                                              interested parties as the OIG develops a           Office of Inspector General at 330
‘‘Performance of Commercial
Activities,’’ defines ‘‘inherently            Compliance Risk Guidance (CRG) for                 Independence Avenue, S.W.,
governmental functions,’’ i.e., those that    ambulance service providers, especially            Washington, D.C. 20201 on Monday
must be performed by government               those serving Medicare, Medicaid and               through Friday of each week from 8
employees, as ‘‘* * * those activities        other Federal health care program                  A.M. to 4:30 P.M.
which require either the exercise of          beneficiaries. The ambulance industry              FOR FURTHER INFORMATION CONTACT:
discretion in applying Governmental           has experienced a number of instances              Sonya Castro, Office of Counsel to the
authority or the use of value judgment        of ambulance provider and supplier                 Inspector General, (202) 619–2078.
in making decisions for the Government        fraud and abuse and has expressed
                                                                                                 SUPPLEMENTARY INFORMATION: The
* * *’’ The determination of a child’s        interest in increasing the awareness of
                                              the industry to assist in protecting               contents of this CRG will differ from the
eligibility for title IV–E is, for example,                                                      previous OIG compliance program
an inherently governmental function.          against such conduct. In response to the
                                              industry’s concerns, the OIG has, to               guidances.3 Although the CRG will refer
   We are requesting that respondents                                                            to the seven elements of establishing an
express their views with regard to how        date, written seven Advisory Opinions
                                              on a variety of ambulance-related                  effective compliance program, set forth
the legal prohibition against contracting
                                              issues 1 and has published a proposed              in the previous compliance program
out inherently governmental functions
is consistent with, and its implications      rule concerning a safe harbor for
                                                                                                   3 The OIG has issued compliance program
for, existing State practice, as well as      ambulance restocking.2
                                                                                                 guidance for the following eight industry sectors:
plans for future contracting. It would           In an effort to provide further                 hospitals, clinical laboratories, home health
assist our decision-making if                 guidance, the OIG is soliciting                    agencies, durable medical equipment suppliers,
respondents from State child welfare          comments, recommendations and other                third-party medical billing companies, hospices,
                                              suggestions from concerned parties and             Medicare+Choice organizations offering
agencies would identify which, if any,                                                           coordinated care plans and nursing facilities.
title IV––E administrative functions the      organizations on how best to develop an            Additionally, the Individual and Small Group
State currently contracts out. Please                                                            Physician Practice Compliance Program Guidance
                                                1 See Advisory Opinions Nos. 97–6, 98–3, 98–7,
identify those considerations you would                                                          has been issued in draft form (June 12, 2000; 65 FR
                                              98–13, 99–1, 99–2 and 99–5. The Advisory           36818). The Compliance Program Guidances can be
like us to take in developing additional      Opinions can be found on the OIG web site at       found on the OIG web site at http://www.hhs.gov/
policy guidance, in the event we              http://www.hhs.gov/oig.                            oig in the Electronic Reading Room, or by calling
determine it is warranted.                      2 See 65 FR 32060; May 22, 2000.                 the OIG Public Affairs office at (202) 619–1343.
                                   Federal Register / Vol. 65, No. 160 / Thursday, August 17, 2000 / Notices                                                                              50205

guidances,4 the CRG will concentrate on                              DEPARTMENT OF HEALTH AND                                     provides the general public, cancer
specific identified risk areas and related                           HUMAN SERVICES                                               patients, families, health professionals,
compliance program best practices.                                                                                                and others with the latest information
   The CRG will include an additional                                National Institutes of Health                                on cancer. Essential to providing the
section relating to risk areas associated                                                                                         best customer service is the need to
                                                                     Submission for OMB Review;                                   collect data about callers and web users
with the Medical Assistance or                                       Comment Request, NCI Cancer
Medicaid program requirements. The                                                                                                and how they found out about the
                                                                     Information Service Demographic/                             service. This effort involves a telephone
OIG intends to broadly address the                                   Customer Service Data Collection                             survey and a web survey. The telephone
Medicaid risks in light of the fact that
                                                                     SUMMARY: Under the provisions of                             survey involves asking seven questions
the coverage and reimbursement rules
                                                                     Section 3506(c)(2)(A) of the Paperwork                       to five categories of callers for an annual
differ among the various Medicaid                                                                                                 total of approximately 500,430 callers.
programs. In order for the OIG to                                    Reduction Act of 1995, the National
                                                                     Cancer Institute (NCI), the National                         Three of the seven questions will be
adequately incorporate the most                                                                                                   asked to 100% of five categories of
                                                                     Institutes of Health (NIH) has submitted
prevalent Medicaid risk areas, we are                                                                                             callers for an annual total of
                                                                     to the Office of Management and Budget
requesting comments and suggestions                                  (OMB) a request to review and approve                        approximately 333,620 callers; four
from the various State agencies                                      the information collection listed below.                     questions will be asked to 50% of the
providing Medicaid services and from                                 This proposed information collection                         same five categories of callers for an
those ambulance providers and                                        was previously published in the Federal                      annual total of approximately 166,810
suppliers that furnish a significant level                           Register on February 7, 2000, Vol. 65,                       callers. The web survey involves asking
of services to Medicaid beneficiaries.                               No. 25, page 5873–5874 and allowed 60                        eight questions to an annual total of
   The OIG would also appreciate                                     days for public comment. No public                           approximately 75,266 voluntary users of
specific comments related to                                         comments were received. The purpose                          the CIS web site. Frequency of
compliance regarding the proposed                                    of this notice is to allow an additional                     Response: Single time. Affected Public:
Medicare ambulance fee schedule.5 As                                 30 days for public comment. The                              Individuals or households. Type of
appropriate, we ask that commenters                                  National Institutes of Health may not                        Respondents: Patients, relatives, friends,
please provide detailed justifications                               conduct or sponsor, and the respondent                       and general public. The annual
and empirical data supporting such                                   is not required to respond to, an                            reporting burden is as follows:
                                                                     information collection that has been                         Estimated Number of Respondents:
comments.
                                                                     extended, revised, or implemented on or                      500,430 callers and 75,266 web users;
  Dated: August 11, 2000.                                            after October 1, 1995, unless it displays                    Estimated Number of Responses per
Michael F. Mangano,                                                  a currently valid OMB control number.                        Respondent: 1; Average Burden Hours
Principal Deputy Inspector General.                                                                                               per Response: Telephone—.00328 and
                                                                     Proposed Collection                                          .0083 and Web—.0137; and Estimated
[FR Doc. 00–20856 Filed 8–16–00; 8:45 am]
BILLING CODE 4152–01–P
                                                                       Title: NCI Cancer Information Service                      Total Annual Burden Hours Requested:
                                                                     Demographic/Customer Service Data                            Telephone—2,479 and Web—1,031. The
                                                                     Collection. Type of Information                              annualized cost to respondents is
                                                                     Collection Request: Revision. OMB No.                        estimated at: $42,120. There are no
                                                                     0925–0208 expires October 2000. Need                         Capital Costs to report. There are no
                                                                     and Use of Information Collection: The                       Operating or Maintenance Costs to
                                                                     Cancer Information Service (CIS)                             report.

                                                                                                                                 Estimated                                          Estimated total
                                                                                                                Estimated                                Average bur-
                                                                                                                                 number of                                          annual burden
                                      Type of respondents                                                       number of                                den hours per
                                                                                                                              responses per                                             hours
                                                                                                               respondents                                 response
                                                                                                                                respondent                                            requested

Individuals or households
Telephone:
     —3 questions (100%)...............................................................................           333,620             1                          0.00328                    1,094
     —4 questions (50%).................................................................................          166,810             1                           0.0083                    1,385
Web:
     —8 questions (100%)...............................................................................            75,266             1                            0.0137                   1,031

            Annualized Totals ..............................................................................        575,696   ........................   ........................            3,510



Request for Comments                                                 the function of the agency, including                        Ways to enhance the quality, utility, and
                                                                     whether the information will have                            clarity of the information to be
   Written comments and/or suggestions                               practical utility; (2) The accuracy of the                   collected; and (4) Ways to minimize the
from the public and affected agencies                                agency’s estimate of the burden of the                       burden of the collection of information
are invited on one or more of the
                                                                     proposed collection of information,                          on those who are to respond, including
following points: (1) Whether the
                                                                     including the validity of the                                the use of appropriate automated,
proposed collection of information is
                                                                     methodology and assumptions used; (3)                        electronic, mechanical, or other
necessary for the proper performance of
   4 The seven elements of an effective compliance                   development and maintenance of effective lines of            procedures to respond to detected offenses and to
program include: (1) The development of written                      communication; (5) the enforcement of standards              initiate corrective action.
policies and procedures; (2) the designation of a                    through well-publicized disciplinary guidelines; (6)           5 The Health Care Financing Administration’s

compliance officer and other appropriate bodies; (3)                 the use of audits and other evaluation techniques            proposed Medicare ambulance fee schedule is
the development and implementation of effective                      to monitor compliance; and (7) the development of            expected to be published in the Federal Register
training and education programs; (4) the                                                                                          shortly.
